                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              FLORIDA CONTINUED TO MISUSE JTPA
                                              FUNDS FOR ITS PERFORMANCE BASED
                                              INCENTIVE FUNDING PROGRAM DURING THE
                                              PERIOD JUNE 10, 1998, TO JUNE 30, 2000




                                                              Date Issued:   September 28, 2007
                                                              Report Number: 04-07-009-03-340
U.S. Department of Labor                              September 2007
Office of Inspector General
Office of Audit
                                                      Florida Continued to Misuse
                                                      JTPA Funds for Its Performance
BRIEFLY…                                              Based Incentive Funding
                                                      Program
Highlights of Report Number: 04-07-009-03 340, to
the Assistant Secretary for Employment and Training
Administration.

WHY READ THE REPORT                                   WHAT OIG FOUND
                                                      Florida continued to operate the PBIF program
In 1994, the State of Florida established the         in the same manner as prior years while its
Performance Based Incentive Funding (PBIF)            appeal of the Grant Officer's decision was
program, funded in part with Job Training             pending. Consequently, the State continued to
Partnership (JTPA) funds, to provide                  misuse PBIF funds to supplement State and
supplemental funding to community colleges            local adult educational costs from June 10,
and school districts. Florida statutes required       1998, until the program ended on June 30,
funds to be used for such purposes as                 2000.
upgrading equipment and expanding vocational
and technical programs.
                                                      The OIG questioned $6,176,454 of JTPA
                                                      funds paid by the State of Florida to school
OIG conducted a prior audit of Florida’s PBIF
                                                      districts and community colleges as PBIF
program for the period March 1, 1995, through
                                                      incentive payments, funds reclassified as Title II-
June 9, 1998, and concluded that PBIF was not
                                                      A used to supplement the schools normal
a bona fide program meeting JTPA’s
                                                      operating budget, and funds spent in
requirements, but rather a funding mechanism to
                                                      administering the PBIF program.
supplement Florida’s State and local adult
educational costs. On April 24, 2006, the U.S.
Court of Appeals upheld the DOL Administrative        WHAT OIG RECOMMENDED
Review Board’s (ARB) decision, which required         We recommended that the Assistant Secretary
Florida to return nearly $11.6 million of JTPA        for Employment and Training recover
funds to the U.S. Department of Labor.                $6,176,454 of JTPA funds that Florida misspent
                                                      on the PBIF program from June 9, 1998, through
WHY OIG DID THE AUDIT                                 June 30, 2000.

After receiving the appellate court decision, the     In its response to the draft report, Florida
OIG conducted an audit to determine if JTPA-          requested that the OIG waive the questioned
funded PBIF payments to Florida's community           costs and not subject the State to repayment of
colleges and participating school districts were      additional funds for various reasons, such as the
made in accordance with applicable laws and           program's benefit to many dislocated workers
regulations during the period June 10, 1998,          and the length of time since the program ceased
through June 30, 2000.                                operations. Florida also disagreed with the
                                                      methodology used to determine questioned
READ THE FULL REPORT                                  administrative costs.

To view the report, including the scope,              The OIG does not have the authority to waive
methodology, and full agency response, go to:         questioned costs.

http://www.oig.dol.gov/public/reports/oa/2007/04
-07-009-03-340
                                                                  Florida Continued to Misuse JTPA Funds for Its
                                                                  Performance Based Incentive Funding Program


Table of Contents
                                                                                                                       PAGE


EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5

    Florida Continued to Misuse JTPA Funds for Its Performance Based
    Incentive Funding Program after June 9, 1998...................................................... 6

EXHIBITS ..................................................................................................................... 11

    A. PBIF Incentive Payments for Title II-A Participants ...................................... 13

APPENDICES............................................................................................................... 15

    A. Background ....................................................................................................... 17

    B. Objective, Scope, Methodology, and Criteria ................................................. 19

    C. Acronyms and Abbreviations........................................................................... 23

    D. Agency Response ............................................................................................. 25




U.S. Department of Labor—Office of Inspector General                                                                          1
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
                                                Florida Continued to Misuse JTPA Funds for Its
                                                Performance Based Incentive Funding Program



Executive Summary
We conducted an audit of Florida’s Performance Based Incentive Funding (PBIF)
program, established to provide supplemental funding to community colleges and
school districts with adult educational programs. The PBIF program was funded in part
with Job Training Partnership Act (JTPA) Title III funds. JTPA was repealed effective
July 1, 2000.

Schools that participated in the PBIF program received fixed fee "incentive" payments
for JTPA participants enrolled in approved courses. A school received a portion of the
fee after a JTPA participant enrolled. Another portion of the fee was paid after a JTPA
student completed his or her training. A final "incentive" payment was made when the
JTPA student found a job.

In a prior audit (Report No. 04-98-005-03-340, issued September 25, 1998), we found
that Florida’s PBIF program was not a bonafide program meeting JTPA’s requirements,
but rather a funding mechanism that used JTPA monies as a means of supplementing
Florida’s State and local adult educational costs. The PBIF program did not provide
JTPA participants with instruction or assistance that was distinguishable from instruction
or assistance available to the general student population who attended the public
schools. As a result, we recommended that the Employment and Training
Administration (ETA) recover more than $11.4 million of JTPA funds that Florida
misspent on the PBIF program. ETA's Grant Officer agreed with our audit findings, and
disallowed the entire questioned cost amount. Florida appealed the Grant Officer's
decision; however, on April 24, 2006, the U.S. Court of Appeals upheld the audit results.
In July 2006, Florida repaid the more than $11.4 million plus statutory interest.

In response to a request from the Department of Labor's Office of the Solicitor, we
initiated this followup audit covering the period June 10, 1998 to June 30, 2000. Our
audit objective was to determine if JTPA-funded PBIF payments to Florida's community
colleges and participating school districts were made in accordance with applicable laws
and regulations. To accomplish this objective, we designed our audit to answer the
following question:

Did Florida continue to operate the PBIF program as a means of supplementing
Florida’s State and local adult educational costs after June 9, 1998?

Results

We found that Florida continued to misuse $6,176,904 of PBIF funds to supplement State
and local adult educational costs during the period June 10, 1998, to June 30, 2000.

Florida continued to operate the PBIF program in the same manner as prior years while
its appeal of the Grant Officer's decision was pending. Consequently, the State

U.S. Department of Labor—Office of Inspector General                                        3
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program

continued to misuse PBIF funds to supplement State and local adult educational costs
from June 10, 1998, until the program ended on June 30, 2000. We question
$6,176,904 of JTPA Title III funds used to fund the PBIF program during this time. The
questioned costs include the following:

    •   $5,155,687 of JTPA Title III funds related to incentive payments made to
        community colleges and school districts for enrolling, training and
        placing JTPA participants;

    •   $550,270 of JTPA Title III funds reclassified as Title II-A and used to
        make additional incentive payments to schools at the direction of
        Regional Workforce Development Boards (RWDB); and

    •   $470,947 related to JTPA Title III funds spent to administer the PBIF program


Agency Response

Florida officials requested that we consider the following factors as a basis for waiving
the questioned costs and not subjecting the State to payment of additional funds: there
was a benefit to many dislocated workers; there was no willful disregard of federal
requirements; the State has already repaid in excess of $11 million; the State’s current
budget crisis; a different administrative structure currently exists; and the length of time
since the program ceased operation.

Florida officials disagreed with the methodology used to determine the amount of
questioned administrative costs. They argue that only one-seventh of the amount
received from the DOL should be questioned, because only one of seven positions
contributed to the administration of the PBIF program.

OIG Conclusion


OIG does not have the authority to waive the questioned costs identified during the
audit. Florida did not provide sufficient documentation to support their contention that
administration of the PBIF program was limited to one-seventh of the funds received
from the DOL; therefore, the questioned costs related to funds spent to administer the
PBIF program remain unchanged.

Recommendation

We recommend that the Assistant Secretary for Employment and Training recover
$6,176,904 of JTPA funds that Florida misspent on the PBIF program during the period
June 10, 1998, to June 30, 2000.



4                                         U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
                                                 Florida Continued to Misuse JTPA Funds for Its
                                                 Performance Based Incentive Funding Program


U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                         Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary for Employment
 and Training
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

We conducted a performance audit of Florida's Performance Based Incentive Funding
(PBIF) program for the period June 10, 1998, to June 30, 2000. The PBIF program
provided funding to Florida's community colleges and school districts to improve or
expand vocational and technical education programs. Florida operated the PBIF
program using Job Training Partnership Act (JTPA) funds, as well as grants funds from
the U. S. Department of Health and Human Services, proceeds from the Florida lottery,
and monies from other State sources.

In response to a request from the Department of Labor's Office of the Solicitor, we
initiated an audit to follow up on findings resulting from our prior audit of Florida's PBIF
program (Report No. 04-98-005-03-340 entitled "Florida Misused JTPA Funds in Its
Performance Based Incentive Funding Program," issued September 25, 1998). The
prior audit covered the period March 1, 1995, through June 9, 1998, and found that the
PBIF program was not a bona fide program that satisfied JTPA requirements. Rather, it
was a funding mechanism that used JTPA monies as a means of supplementing
Florida's State and local adult educational costs. We found nothing to distinguish
assistance provided JTPA participants, for whom the schools received PBIF program
monies, from the services provided to the general student population. Consequently,
we questioned $11,419,499 (hereafter rounded to $11.4 million) of JTPA funds spent on
the PBIF program.

The ETA Grant Officer, in a Final Determination dated July 6, 1999, disallowed the
entire questioned cost amount of $11.4 million. Florida requested a hearing before an
Administrative Law Judge (ALJ), who reversed the Grant Officer. However, ETA
appealed the ALJ's decision to the Administrative Review Board (ARB). In February
2005, the ARB overruled the ALJ, finding that Florida had violated the requirement that
JTPA funds not be used to pay for activities that would be available even in the absence
of federal assistance. Florida then appealed the ARB's decision to the U. S. Court of
Appeals for the Eleventh Circuit. On April 24, 2006, the appeals court upheld the
finding of the ARB that Florida had misspent JTPA funds and should repay the $11.4

U.S. Department of Labor—Office of Inspector General                                         5
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program

million of questioned costs. In July 2006, Florida repaid the $11.4 million plus statutory
interest.

Our initial audit covered the period March 1, 1995 through June 9, 1998. The objective
of our followup audit was to determine if JTPA-funded PBIF payments to Florida's
community colleges and participating school districts were made in accordance with
applicable laws and regulations during the period June 10, 1998 through the end of the
program on June 30, 2000.

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit objective, scope, methodology and criteria are detailed
in Appendix B.


Objective – Were JTPA-funded PBIF Payments to Florida's Community Colleges
and Participating School Districts Made in Accordance with Applicable JTPA
Laws and Regulations During the Period June 10, 1998, to June 30, 2000?

Results and Finding -- Florida Continued to Misuse JTPA Funds for its
Performance Based Incentive Funding Program After June 9, 1998
OIG's prior audit of the PBIF program found that it did not provide JTPA participants
with instruction or assistance that was distinguishable from instruction or assistance
available to the general student population who attended the public schools. The prior
audit questioned more than $11.4 million of JTPA funds used in the PBIF program, and
ETA's Grant Officer disallowed the entire questioned cost amount. Florida appealed the
Grant Officer's decision, but continued to operate the PBIF program in the same manner
while the case was in litigation. In April 2006 the U. S. Court of Appeals upheld the
Grant Officer's decision and required Florida to return nearly $11.6 1 million ($11.4
million of questioned costs plus $159,866 interest) to the U. S. Department of Labor.
Because Florida continued to operate the PBIF program in the same manner while its
appeal of the Grant Officer's decision was pending, the State continued to misuse PBIF
funds to supplement State and local adult educational costs during the period June 10,
1998, to June 30, 2000. We question $6,176,904, of JTPA funds used to fund the PBIF
program during this time. The questioned costs include the following:

    1. $5,155,687 of JTPA Title III funds related to incentive payments made to
       community colleges and school districts for enrolling, training and
       placing JTPA participants;

    2. $550,270 of JTPA Title III funds reclassified as Title II-A and used to
       make additional incentive payments to schools at the direction of
       Regional Workforce Development Boards (RWDB); and


1
  Florida was required to return $11,579,365. This amount includes $11,419,499 of questioned costs and $159,866
in interest.

6                                                 U.S. Department of Labor—Office of Inspector General
                                                                      Report Number: 04-07-009-03-340
                                                Florida Continued to Misuse JTPA Funds for Its
                                                Performance Based Incentive Funding Program


   3. $470,947 related to JTPA Title III funds spent to administer the PBIF
      program.

1. Incentive Payments Made to Community Colleges and School Districts for
   Enrolling, Training and Placing JTPA participants

Florida continued to misuse JTPA funds by paying $5,155,687 of incentive payments to
schools for instruction or assistance that was not distinguishable from instruction or
assistance available to the general student population.

The purpose of JTPA was to fund programs that provided training and services to
participants that allowed them to overcome employment barriers and participate in the
workforce. The PBIF program, funded in part with JTPA monies, provided funding to
community colleges and school districts to improve or expand vocational and technical
education programs and for such purposes as upgrading equipment.

Schools that participated in the PBIF program received fixed fee "incentive" payments
for JTPA participants enrolled in approved courses. The fees were loosely based on
calculations of the schools' average per-student instructional costs for the previous year.
The fee was recalculated annually.

A school received a portion of the fixed fee after a JTPA participant enrolled. Another
portion of the fee was paid to the school after a JTPA student competed his or her
training. A final "incentive" payment was made when a JTPA student found a job. See
Exhibit A for an overview of PBIF Program Payment System.

OIG concluded in its prior audit that Florida’s PBIF program was not designed to assist
individual JTPA participants. OIG found nothing to distinguish assistance provided
JTPA participants, for whom the schools received incentive payments, from the services
provided to the general student population. The payments were contrary to Section
141(b) of the JTPA, which required that funds only be used for:

   ...activities which are in addition to those which would otherwise be available
   in the area in the absence of such funds.

OIG also questioned the necessity and reasonableness of the incentive payments made
using JTPA funds. These incentive payments were based upon calculations of the
schools’ average per-student instructional costs for the previous year. Florida’s statute
established the portion of instructional costs to be funded from the students’ tuition
payments and the portion to be borne by the State. Therefore, additional charges to
JTPA, in excess of participants’ tuition and fees, violated Section 164 (a)(2)(A) of the
Act, which required that to be allowable, costs charged to JTPA programs must:

   ...be necessary and reasonable for proper and efficient administration of the
   program under this Act....


U.S. Department of Labor—Office of Inspector General                                        7
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program

Lastly, OIG concluded that improvements made to programs available to all students
who met enrollment requirements were general costs of education and should be
funded with State monies. While improving the State’s adult education programs may
have been a laudable objective, it was not a proper use of JTPA funds and violated
Section 164 (a)(2)(C) of the Act, which prohibited expenditures for:

    ...a general expense required to carry out the overall responsibilities of State,
    local, or federally recognized Indian tribal governments....

Because Florida continued to operate the PBIF program in the same manner as prior
program years while it appealed the Grant Officer's decision, the State continued to
misuse JTPA funds and, therefore, we question all JTPA funds used in the operation of
the PBIF program during the period June 10, 1998, through the end of the program on
June 30, 2000.

Florida made JTPA incentive payments of $3,280,918 in FY 1998 and $3,188,424 in FY
1999. 2 Payments were made to 24 school districts and 28 community colleges. The
scope of our prior audit went through June 9, 1998; consequently, a portion of the FY
1998 incentive payments paid by the State was questioned in the prior audit report. To
avoid duplicative questioned costs, we subtracted incentive payments questioned in the
prior audit report from total incentive payments reported on the PBIF Program Funding
Sources and State Expenditures summary schedule provided by Workforce Florida,
Inc., 3 for FY 1995 through FY 1999. Questioned costs for incentive payments paid
from JTPA funds during the period June 10, 1998, to June 30, 2000 were calculated as
follows:


Incentive Payments Made Using JTPA
Funds, as of June 30, 2000:                                                 $15,767,752
Less: Incentive Payments Questioned in
Prior Audit:                                                              < 10,612,065>
Questioned Costs for the Period June
10, 1998 to June 30, 2000:                                                 $ 5,155,687


2. Additional Incentive Payments to Schools by RWDBs

In addition to incentives that Florida paid to schools for its PBIF program using Title III
funds, Florida also paid incentives of $550,270 using JTPA Title II-A funds.



2
  FY 1999 also includes FY 1999 funds that were expended in FY 2000.
3
  The PBIF program was initially administered by Florida's Jobs and Education Partnership (JEP). In 2000, the
Florida Workforce Innovation Act created Workforce Florida, Inc. and Agency for Workforce Innovation (AWI),
which assumed the responsibilities of the Florida Department of Labor and Employment Security (FDLES) relative
to the PBIF program.

8                                                U.S. Department of Labor—Office of Inspector General
                                                                     Report Number: 04-07-009-03-340
                                                         Florida Continued to Misuse JTPA Funds for Its
                                                         Performance Based Incentive Funding Program

ETA's Training and Employment Guidance Letter 7-95, dated July 31, 1996 stated the
following:

        In the 1996 Omnibus Appropriations Act, Congress authorized the
        transfers of PY 1996 funds between JTPA titles II-A and III for adults and
        between title II-B and II-C for youth. The current authorization in JTPA
        sections 206, and 266 for the transfer of funds between titles II-A and II-C
        is unaffected. This local flexibility provided to service delivery areas
        (SDAs) and substate areas (SSAs) in planning and fund transfer requires
        the approval of the Governor prior to implementation.

Subsequent legislative actions extended the authority for such transfers through PY
1999.

Officials of Workforce Florida, Inc., stated that Jobs and Education Partnership (JEP)
transferred excess Title III funds to the Florida Department of Labor and Employment
Security (FDLES) for use by Florida's RWDBs in the Title II-A program. At the direction
of the RWDBs, FDLES used the transferred funds to make PBIF payments to 14
schools for services provided to Title II-A participants. FLAIR, the state accounting
system, reflects a total of $550,270 4 in incentive payments paid by the FDLES to the 14
schools. See Exhibit A for details regarding these payments.

The same restrictions regarding the use of JTPA Title III funds to supplement State and
local adult educational costs also apply to JTPA Title II-A funds. We question all
$550,270 of the JTPA Title II-A funds used to make PBIF payments.

3. Florida Used JTPA Funds to Pay PBIF Administrative Costs

Because the incentive payments paid to schools were improper, we also question
$470,947 of JTPA funds spent in administering the PBIF program.

The PBIF program was administered by JEP. JEP charged administrative costs of
$905,667 to the FY 1998 and FY 1999 JTPA Title III grants ($414,805 and 490,862,
respectively). The charges relate to a number of JTPA programs administered by JEP,
including the PBIF program.

JEP’s financial records did not allow direct identification of the portion of Title III
administrative costs associated with the PBIF program. Therefore, we applied the
method used during our prior audit of the PBIF program to calculate the amount of
administrative costs allocable to the PBIF program for FY 1998 through FY 1999 as
follows:

4
 According to the Controller for AWI Financial Management, PBIF was not tracked uniquely in FLAIR, the state
accounting system. Therefore, the Controller looked within category 100757 (Contracts category) in the FLAIR
system under grant numbers A0817 and A0818, which represent FY 1998 and FY 1999 respectively, and searched
for payments made to the schools listed in the two grant modifications. A total of $550,270 was allocated to
fourteen schools, all of which were charged under grant A0818 for FY 1999.

U.S. Department of Labor—Office of Inspector General                                                           9
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program



       Title III PBIF Expenditures               $5,155,687 (52%)
       Title III Other Project Expenditures      + 4,687,598 (48%)
       Total Title III Expenditures              $9,843,285 (100%)

       Title III Administrative Cost                $905,667
       Title III PBIF Percentage                     x 52%
       Title III PBIF Administrative Cost           $470,947

Questioned costs for JTPA funds spent in administering the PBIF program totaled
$470,947. Florida disagrees with our allocation method, stating that only a portion of
one of the seven positions funded by JTPA administrative funds was associated with
the PBIF program. However, no supporting documentation was provided, with the
exception of position descriptions, showing the variety of responsibilities assigned to the
individuals whose positions were funded by JTPA administrative funds.

Agency Response
Florida officials requested that we consider the following factors as a basis for waiving
the questioned costs and not subjecting the State to payment of additional funds: there
was a benefit to many dislocated workers; there was no willful disregard of federal
requirements; the State has already paid in excess of $11 million; the State’s current
budget crisis; a different administrative structure currently exists; and the length of time
since the program ceased operation.

Florida officials disagreed with the methodology used to determine the amount of
questioned administrative costs. They argue that only one-seventh of the amount
received from the DOL should be questioned, because only one of seven positions
contributed to the administration of the PBIF program.

OIG Conclusion
OIG does not have the authority to waive the questioned costs identified during the
audit. Florida did not provide sufficient documentation to support their contention that
administration of the PBIF program was limited to one-seventh of the funds received
from the DOL; therefore, the questioned costs related to funds spent to administer the
PBIF program remain unchanged.

Recommendation
We recommend that the Assistant Secretary for Employment and Training recover
$6,176,904 of JTPA funds that Florida continued to misspend on its PBIF program from
June 10, 1998, to June 30, 2000.




Elliot P. Lewis
April 26, 2007

10                                          U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 04-07-009-03-340
                                                Florida Continued to Misuse JTPA Funds for Its
                                                Performance Based Incentive Funding Program




Exhibits




U.S. Department of Labor—Office of Inspector General                                       11
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
                                                 Florida Continued to Misuse JTPA Funds for Its
                                                 Performance Based Incentive Funding Program

                                                                                  EXHIBIT A


             PBIF Incentive Payments for Title II-A Participants

Regional Board                School Name                     Date           Amount

  Region 7            Lake City Community College            03/27/00      $14,163.19
  Region 7            Lake City Community College            06/28/00       33,712.86
  Region 8            St. Johns County School District       06/06/00       23,102.94
  Region 8            Florida Community College, JAX         06/28/00      129,640.85
  Region 8            St. Johns Community College            06/28/00         4,367.72
  Region 12           Orange County School District          02/16/00       55,745.90
  Region 12           Lake Sumter Community College          03/27/00         7,241.22
  Region 12           Seminole Community College             03/27/00         3,208.07
  Region 12           Valencia Community College             03/27/00         5,505.65
  Region 12           Lake County School District            06/06/00         1,379.28
  Region 12           Lake Sumter Community College          06/06/00         3,907.96
  Region 12           Orange County School District          06/06/00       22,413.30
  Region 12           Seminole Community College             06/06/00       24,367.28
  Region 12           Valencia Community College             06/06/00       23,698.87
  Region 14           Pinellas County School District        03/27/00         7,586.04
  Region 14           St. Petersburg Community College       03/27/00       34,252.12
  Region 14           Pinellas County School District        06/06/00         3,909.29
  Region 14           St. Petersburg Community College       06/06/00       49,998.90
  Region 14           Pinellas County School District        06/28/00         2,297.47
  Region 16           Pasco Hernando Community College       06/28/00       52,218.89
  Region 20           Indian River School District           03/27/00          804.58
  Region 20           Indian River Community College         06/06/00       45,943.30
  Region 20           Indian River School District           06/06/00          804.58


                              TOTAL                                     $550,270.26



U.S. Department of Labor—Office of Inspector General                                        13
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds In Its
Performance Based Incentive Funding Program




Appendices




U.S. Department of Labor—Office of Inspector General   15
Report Number: 05-05-002-10-001
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
                                                Florida Continued to Misuse JTPA Funds for Its
                                                Performance Based Incentive Funding Program


                                                                               APPENDIX A
BACKGROUND

The purpose of the Job Training Partnership Act (JTPA) was to establish programs that
would prepare youth and adults facing serious barriers to employment for participation
in the labor force by providing job training and other services that would result in
increased employment and earnings, increased educational and occupational skills, and
decreased welfare dependency. JTPA was repealed, effective July 1, 2000.

In 1992, the Florida Legislature established Enterprise Florida Incorporated (EFI) with
the goal of creating a competitive economy characterized by high-wage employment.
Then in 1994, the Florida Legislature established a Performance Based Incentive
Funding (PBIF) program funded in part with JTPA funds. The PBIF program was
initially administered by Jobs and Education Partnership (JEP), a subsidiary of EFI.
Four years later in 1998, the State Workforce Development Board was established and
assumed the role of the JEP. In 2000, the Florida Workforce Innovation Act created
Workforce Florida, Inc. and the Agency for Workforce Innovation, which assumed the
responsibilities of the Florida Department of Labor and Employment Security (FDLES)
relative to the PBIF program.

The PBIF program provided funding to community colleges and school districts with
adult vocational programs. PBIF funds were to be used to improve or expand
vocational and technical education programs, and for such purposes as upgrading
equipment. In addition to JTPA funds, the PBIF program received grant funds from the
U.S. Department of Health and Human Services, proceeds from the Florida Lottery and
monies from other State sources. Funding for the PBIF program was determined by
Florida's annual legislative appropriation process.

JEP ensured that invoices submitted to the Office of Tourism, Trade, and Economic
Development (OTTED) for payment of performance based incentives were based on an
accurate analysis of student performance data reported to JEP by participating school
districts and the Division of Community Colleges on behalf of individual colleges.
OTTED was the fiscal agent for the receipt of JTPA Title III Governor's Discretionary
Funds, which included PBIF funds, and processed payments to JEP subrecipients
(schools and community colleges).

In 1997, the Office of Inspector General (OIG) conducted an audit on Florida's PBIF
program. The audit was initiated in response to a hotline complaint which alleged that
the State of Florida had improperly spent JTPA funds through its PBIF program. In an
audit report issued on September 25, 1998 (Report No. 04-98-005-03-340), OIG
concluded that the PBIF program was not a bona fide program meeting JTPA’s
requirements, but rather a funding mechanism that used JTPA monies as a means of
supplementing Florida’s State and local adult educational costs. The PBIF program did
not provide participants with services or assistance that was not available to the general
population of students, and OIG recommended that Title III funds used in the PBIF

U.S. Department of Labor—Office of Inspector General                                       17
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program

program be recovered. On April 24, 2006, the U. S. Court of Appeals upheld the
Administrative Review Board’s decision requiring Florida to return nearly $11.6 million to
the U.S. Department of Labor, including $159,866 in interest. In July 2006, Florida
repaid the $11.4 million plus statutory interest.




18                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
                                                Florida Continued to Misuse JTPA Funds for Its
                                                Performance Based Incentive Funding Program


                                                                               APPENDIX B

OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA


Objective

The Office of Inspector General conducted a followup audit of Florida’s JTPA PBIF
program. The objective of our followup audit was to determine if JTPA-funded PBIF
payments to Florida's community colleges and participating school districts were made
in accordance with applicable laws and regulations during the period June 10, 1998
through the end of the program on June 30, 2000. To accomplish this objective we
designed our audit to answer the following question:

        Did Florida continue to operate the PBIF program as a means of supplementing
        Florida’s State and local adult educational costs after June 9, 1998?

Scope

Our audit covered the State of Florida’s PBIF program activities from June 10, 1998,
until funding for the program ended on June 30, 2000. The audit examined the FY 1998
and FY 1999 JTPA Title III Discretionary Funds used to fund the PBIF program (Grant
Nos. A-6189-7-00-87-50 and A-6693-8-00-87-50, respectively). During this time period,
Florida spent approximately $6,176,904 to operate the PBIF program. Florida Officials
were not able to provide invoices or cancelled checks for $600,634.56 of the incentive
payments to which they attested. We conducted our audit at the offices of Workforce
Florida, Inc., located in Tallahassee, and the scope of our work included payments
made to community colleges and school districts located in a variety of places within
Florida.

Methodology

To determine if Florida continued to operate the PBIF program as a means of
supplementing Florida’s State and local adult educational costs after June 9, 1998, we
interviewed officials at Workforce Florida, Inc., and the Agency for Workforce
Innovation, Financial Management Department. We also reviewed prior audit reports
and contract agreements.

To determine the total amount of JTPA funds Florida spent to operate the PBIF program
from June 10, 1998, to June 30, 2000, we reviewed the PBIF Funding Sources and
State Expenditures summary schedule of incentive payments paid to school districts
and community colleges. To validate the summary schedule, we examined supporting
documentation such as checks and accompanying invoices. We also reviewed EFI
consolidated financial statements.



U.S. Department of Labor—Office of Inspector General                                       19
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program

We also determined the amount of JTPA Title III funds that were reclassified as Title II-
A. According to the Controller for AWI Financial Management, PBIF program costs
were not tracked uniquely in FLAIR, the state accounting system. Therefore, the
Controller looked within category 100757 (Contracts category) under grant numbers
A0817 and A0818, which represented FY 1998 and FY 1999, respectively, and
searched for payments made to the schools listed in the two grant modifications.

Internal Controls

We did not perform an evaluation of EFI’s internal control systems or individual schools’
internal controls over JTPA-funded PBIF payments or participants’ eligibility for the
JTPA program. Our testing was designed to determine if Florida continued to operate
the PBIF program as a means of supplementing Florida’s State and local adult
educational costs after June 9, 1998. Our prior audit of the PBIF program covered the
period March 1, 1995, through June 9, 1998.

Compliance with Laws and Regulations

Our testing of Florida’s compliance with applicable JTPA laws was limited to PBIF
incentive payments made to school districts and community colleges. This testing was
not intended to form an opinion on compliance with laws and regulations as a whole,
and we do not render such an opinion.

Auditing Standards

We conducted our audit in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We performed fieldwork at
Workforce Florida, Inc., from March 13, 2007 through April 26, 2007.

Criteria

We used the following criteria to perform this audit:

       •   JTPA as amended by the Job Training Reform Amendments of 1992 and the
           School-to-Work Opportunities Act of 1994
              - Section 141 (b)
              - Section 164 (a)(2)(A)
              - Section 164 (a)(2)(C)

       •   U.S. DOL – ETA, Training And Employment Guidance Letter No. 7-95 – JTPA
           Intertitle Transfers of Funds


20                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
                                                Florida Continued to Misuse JTPA Funds for Its
                                                Performance Based Incentive Funding Program

       •   U.S. Court of Appeals Decision (Florida Agency for Workforce Innovation v.
           DOL, 11th Cir., No. 05-11664, unpublished decision, 4/24/06)




U.S. Department of Labor—Office of Inspector General                                       21
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds In Its
Performance Based Incentive Funding Program

                                                                  APPENDIX C
ACRONYMS AND ABBREVIATIONS


ARB         Administrative Review Board

AWI         Agency for Workforce Innovation

EFI         Enterprise Florida Incorporated

ETA         Employment and Training Administration

FDLES       Florida Department of Labor and Employment Security

JEP         Jobs and Education Partnership

JTPA        Job Training Partnership Act

OIG         Office of Inspector General

OTTED       Office of Tourism, Trade, and Economic Development

PBIF        Performance Based Incentive Funding

FY          Fiscal Year

RWDB        Regional Workforce Development Board

WAGES       Work and Gain Economic Self-Sufficiency




U.S. Department of Labor—Office of Inspector General                      23
Report Number: 05-05-002-10-001
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program




24                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds In Its
Performance Based Incentive Funding Program

                                                       APPENDIX D

AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General           25
Report Number: 05-05-002-10-001
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program




26                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
                                                Florida Continued to Misuse JTPA Funds for Its
                                                Performance Based Incentive Funding Program




U.S. Department of Labor—Office of Inspector General                                       27
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program




28                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
                                                Florida Continued to Misuse JTPA Funds for Its
                                                Performance Based Incentive Funding Program




U.S. Department of Labor—Office of Inspector General                                       29
Report Number: 04-07-009-03-340
Florida Continued to Misuse JTPA Funds for Its
Performance Based Incentive Funding Program




30                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 04-07-009-03-340
